   June 14, 2002




Acquisition

Fire Performance Tests and
Requirements for Shipboard
Mattresses
(D-2002-105)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DCMA                  Defense Contract Management Agency
DSCP                  Defense Supply Center Philadelphia
FAR                   Federal Acquisition Regulation
NAVSEA                Naval Sea Systems Command
NIB                   National Industries for the Blind
         Office of the Inspector General of the Department of Defense
Report No. D-2002-105                                                      June 14, 2002
   Project No. D2002CH-0033

                  Fire Performance Tests and Requirements
                          for Shipboard Mattresses

                                Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
contracting officials responsible for developing contract performance requirements,
officials responsible for approving first article test results, and quality assurance
representatives responsible for conducting contract performance tests and ensuring
contractor compliance with contract performance requirements.

Background. The audit was performed in response to a request from the Director,
Defense Logistics Agency regarding the award and administration of contract SP0100-
00-D-EE72 to procure innerspring mattresses for the Navy. The Navy, under its
habitability improvement program, had been testing innerspring mattresses since the
early 1990s as replacements for the neoprene foam mattresses on board ships. In
March 2000, the Secretary of the Navy approved a habitability improvement initiative
to replace the neoprene foam mattresses on board ships with significantly more
comfortable innerspring mattresses. The Navy had a total requirement for
180,000 innerspring mattresses to support this habitability improvement initiative.
From March through July 2000, the Naval Sea Systems Command developed a
purchase description for a fire-resistant, innerspring, shipboard mattress. Based on the
purchase description, the Defense Supply Center Philadelphia awarded contract
SP0100-00-D-EE72 to National Industries for the Blind in July 2000 to manufacture
90,000 innerspring mattresses valued at $12.5 million. A follow-on contract for
additional innerspring mattresses was awarded in August 2001.

In August and September 2001, the Naval Sea Systems Command and the Defense
Supply Center Philadelphia had fire performance tests conducted on the innerspring
mattresses for the initial and follow-on contracts. The tests identified that the
innerspring mattresses did not meet fire resistance requirements. In October 2001, the
Defense Supply Center Philadelphia directed National Industries for the Blind to stop
manufacturing the innerspring mattresses.

Results. The Naval Sea Systems Command and Defense agency contracting officials
did not require National Industries for the Blind to conduct sufficient fire performance
tests for first article and quality assurance requirements on the innerspring mattresses.
As a result, the Navy spent $12.5 million for 90,448 mattresses that did not meet
Navy-defined fire performance requirements. The Defense Supply Center Philadelphia
then needed to procure fire-resistant mattress covers, costing an additional $4.3 million,
to reduce the risk of the mattresses catching fire. Requiring compliance with technical
requirements to perform tests on future procurements of innerspring mattresses or
notifying the contracting officer if the Navy amends its technical requirements will
ensure that mattresses meet contract requirements. Implementation of acquisition
requirements will improve the Defense Supply Center Philadelphia’s abilities to:
maintain adequate documentation on future innerspring mattress procurements to
support all contractual actions, require the contractor to provide innerspring mattresses
that comply with contract requirements, and require the contractor to comply with
contract quality assurance requirements. Improvements should also include requiring
the contractor to comply with contract quality assurance requirements for any future
innerspring mattress contracts or obtaining a contract modification from the contracting
officer. (See the Finding section for the detailed recommendations.)

Management Comments. The Commander, Naval Sea Systems Command; Director,
Defense Logistics Agency; and Director, Defense Contract Management Agency
concurred with the recommendations and stated that corrective actions were completed
or will be completed by June 30, 2002. In addition, the Director, Defense Contract
Management Agency generally agreed with the finding and stated that two key events
related to the administration of the innerspring mattress contract were not included in
the chronology of events in Appendix B. We partially agreed with this statement and
added one of the events to Appendix B. Therefore, no further comments are required.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                      i


Background                                                             1


Objective                                                              3


Finding
     Fire Performance Tests and Requirements                           4

Appendixes
     A. Scope and Methodology
           Scope                                                      12
           Methodology                                                12
           Prior Coverage                                             12
     B. Chronology of Events for Innerspring Mattresses Procured on
           Contract SP0100-00-D-EE72                                  13
     C. Federal Acquisition Regulation Requirements                   14
     D. Report Distribution                                           16

Management Comments
     Naval Sea Systems Command                                        19
     Defense Logistics Agency                                         23
     Defense Contract Management Agency                               26
Background
    The Navy, under its habitability improvement program, had been testing
    innerspring mattresses since the early 1990s as replacements for the neoprene
    foam mattresses on board ships. In March 2000, the Secretary of the Navy
    approved a habitability improvement initiative to replace the neoprene foam
    mattresses with significantly more comfortable innerspring mattresses. The
    Navy had a total requirement for 180,000 innerspring mattresses.

    From March through July 2000, the Naval Sea Systems Command (NAVSEA)
    developed a purchase description for a fire-resistant, innerspring, shipboard
    mattress (Innerspring Mattress). Based on the purchase description, the Defense
    Supply Center Philadelphia (DSCP) awarded contract SP0100-00-D-EE72 to
    National Industries for the Blind (NIB) in July 2000 to manufacture
    90,000 Innerspring Mattresses. From July 2000 through June 2001, the Navy
    procured 90,448 Innerspring Mattresses at a total cost of $12.5 million.

    In August 2001, DSCP awarded a follow-on contract (SP0100-01-D-EE66) to
    NIB to manufacture an additional 90,000 Innerspring Mattresses. The follow-on
    contract required NIB to submit mattresses to Omega Point Laboratories, Inc.
    for first article fire performance tests prior to producing the mattresses. NIB
    sent 12 Innerspring Mattresses to Omega Point Laboratories, Inc. for fire
    performance tests, and all 12 mattresses failed because the mattresses had
    flaming droplets.

    In September 2001, NAVSEA sent an additional 21 Innerspring Mattresses
    manufactured under the initial and follow-on contracts to Omega Point
    Laboratories, Inc. for fire performance tests, and 15 of the mattresses failed.
    Personnel from the NAVSEA Fire Protection Branch, Naval Surface Warfare
    Center witnessed the tests and verified that the mattresses did not meet the Navy
    fire performance requirements. As a result, NAVSEA did not order mattresses
    under the follow-on contract, and DSCP directed NIB to stop manufacturing the
    Innerspring Mattresses. To reduce the risk of fire from the mattresses that did
    not meet fire performance requirements that were already issued to the fleet,
    DSCP awarded contract SP0100-02-D-EA34 to NIB in November 2001 to
    manufacture 90,000 fire-resistant mattress covers at a total cost of $4.3 million.

    DSCP has partnered with NAVSEA and NIB to ensure that adequate research,
    development, and testing are conducted on the Innerspring Mattresses and to
    write a purchase description that will satisfy the Navy fire performance
    requirements prior to awarding another Innerspring Mattress contract. See
    Appendix B for a chronology of events for Innerspring Mattress procurement.

    Naval Sea Systems Command. NAVSEA is one of five Navy systems
    commands under the Secretary of the Navy. NAVSEA responsibilities include
    habitability and quality of life issues for the Navy fleet. Specifically, the
    NAVSEA Human Systems Integration Directorate and the Fire Protection
    Branch, Naval Surface Warfare Center were responsible for providing the




                                        1
purchase description for an Innerspring Mattress that meets Navy requirements
for size, comfort, and fire resistance. NAVSEA requested DSCP assistance to
award a contract for Innerspring Mattresses to NIB.

Defense Supply Center Philadelphia. DSCP is 1 of 11 Defense Logistics
Agency field organizations and is responsible for providing supply support,
contract management services, and technical and logistics services to DoD.
Specifically, DSCP is responsible for awarding contracts to support DoD needs
for food, clothing, textiles, medicines, medical equipment, and general and
industrial supplies, including mattresses. DSCP obtained the Innerspring
Mattress procurement requirements from NAVSEA and awarded the initial and
follow-on contracts for Innerspring Mattresses to NIB. DSCP designated the
Defense Contract Management Agency (DCMA) as the administrative
contracting office for the contracts.

Defense Contract Management Agency. DCMA is responsible for performing
contract administration functions, which include ensuring that the contractor
complies with contract requirements throughout the life of the contract. DCMA
has three districts, which include 135 field offices, and assigns contract
administration duties to administrative contracting officers and quality assurance
representatives located in the districts where the contracts are being performed.
The DCMA representatives visit contractor facilities to ensure that the
contractors perform work in accordance with the contracts.

National Industries for the Blind. NIB is a mandatory source of supply for
mattresses under Federal Acquisition Regulation (FAR) Part 8, in accordance
with the Javits-Wagner-O’Day Act and the rules of the Committee for Purchase
From People Who Are Blind or Severely Disabled. In July 2000, NIB
designated the following manufacturers to produce the mattresses under contract
SP0100-00-D-EE72: Virginia Industries for the Blind, Charlottesville, Virginia;
Lions Club Industries, Durham, North Carolina; and Winston-Salem Industries
for the Blind, Winston-Salem, North Carolina. NIB added a fourth
manufacturer, Lions Club Industries, Tupelo, Mississippi, to the contract in
May 2001.
Mattress Components. Contract SP0100-00-D-EE72 required the mattresses to
consist of fire-resistant components. The Innerspring Mattresses consist of three
components: innerspring, individually pocketed coils; cotton batting; and cotton
ticking. The innerspring component consists of coils individually pocketed in
polyolefin material, which is not fire resistant. The innerspring component was
successfully used to satisfy comfort requirements over the neoprene foam
mattress. The cotton batting and cotton ticking are both chemically treated to be
fire resistant, in accordance with commercial standards, and are quilted together
to make up the outer layer of the mattress. The 1-sided mattresses consist of the
innerspring component covered with the cotton batting quilted to the cotton
ticking on the top of the mattress, but no cotton batting quilted to the cotton




                                    2
     ticking on the bottom of the mattress. Two-sided Innerspring Mattresses have
     cotton batting quilted to the cotton ticking on the top and bottom of the
     mattresses. The Innerspring Mattress components are identified in the following
     picture.




    Cotton Ticking


    Cotton Batting


 Polyolefin Material
  Covering Springs




                                 Navy Innerspring Mattress Components

     Fire performance tests have demonstrated that the polyolefin material, which is
     not fire resistant, is the mattress component that forms burning droplets and
     usually results in the mattress failing the fire performance test.

Objective
     The overall audit objective was to determine whether contract award and
     administration policies and procedures were properly followed for contract
     SP0100-00-D-EE72. Appendix A discusses the audit scope, methodology, and
     prior coverage.




                                         3
           Fire Performance Tests and
           Requirements
           NAVSEA and Defense agency contracting officials did not require NIB
           to conduct sufficient fire performance tests for first article and quality
           assurance requirements on the Innerspring Mattresses procured on
           contract SP0100-00-D-EE72. Sufficient fire performance tests were not
           performed because:

                  • NAVSEA did not require NIB to comply with first article test
                    requirements;

                  • DSCP modified the contract without obtaining adequate
                    support to delete first article requirements; and

                  • DSCP and DCMA contracting officers did not require NIB to
                    perform 6-month conformance tests.

           The Secretary of the Navy directed that the procurement cycle for the
           Innerspring Mattresses be reduced from 1 year to 6 months and limited
           funding for testing also impacted decisions relating to fire performance
           tests. As a result, the Navy spent $12.5 million for 90,448 mattresses
           that did not meet Navy-defined contract requirements for fire resistance.
           DSCP then needed to procure fire-resistant mattress covers for an
           additional $4.3 million to satisfy fire performance requirements.


Innerspring Mattress Contract
    Navy Initiative. On March 16, 2000, NAVSEA briefed the Secretary of the
    Navy on habitability improvement initiatives, including providing Innerspring
    Mattresses to the fleet. The Innerspring Mattresses were significantly more
    comfortable than the neoprene foam mattress. When the Secretary of the Navy
    approved the habitability improvement initiative to provide Innerspring
    Mattresses to the fleet, NAVSEA stated that the initiative would take 1 year to
    implement. The Secretary of the Navy directed that the procurement cycle for
    the Innerspring Mattresses be reduced from 1 year to 6 months. NAVSEA
    program officials developed a purchase description for an Innerspring Mattress
    based on a commercial mattress that was modified to meet the Navy shipboard
    fire performance requirements. In July 2000, 4 months after the Secretary of
    the Navy approved the habitability improvement initiative, NAVSEA officials
    implemented the initiative by authorizing DSCP to award a contract to NIB to
    manufacture Innerspring Mattresses.




                                        4
Contract Requirements. DSCP incorporated the NAVSEA purchase
description for Innerspring Mattresses into the contract and, in July 2000,
awarded the contract to NIB to manufacture 90,000 1-sided Innerspring
Mattresses. The contract included first article requirements and quality
assurance requirements.

           First Article Requirements. FAR Subpart 2.1, “Definitions,” defines
first article as the initial production sample of a product procured under
contract. The first article requirements in the contract state that a sample shall
consist of two units of each mattress size. Each sample is evaluated at the
contract facility, and then the mattress samples are shipped to the Defense
Logistics Agency Product Test Center for comfort tests and Omega Point
Laboratories, Inc. for fire performance tests.

               Facility Evaluation. First article requirements state that the
samples of mattresses shall be evaluated for conformance with visual and
physical characteristics defined in the purchase description. The characteristics
evaluated include stitching, labeling, length, width, depth, weight, and overall
appearance.

               Comfort Tests. First article requirements state that one sample
mattress shall be sent to the Defense Logistics Agency Product Test Center for
firmness and durability tests.

               Fire Performance Tests. First article requirements state that
one sample of each mattress size shall be submitted to Omega Point
Laboratories, Inc. for fire performance tests. Omega Point Laboratories, Inc. is
a commercial test facility that DSCP contracted with to conduct the fire
performance tests. The mattresses must comply with the requirements of
National Fire Protection Association 267, 1998 Edition, “Standard Method of
Test for Fire Characteristics of Mattresses and Bedding Assemblies Exposed to
Flaming Ignition Source.” The national standard requirements are in addition
to, and do not negate, the flammability requirements cited in the purchase
description, which state that the mattresses must meet the following three
conditions of acceptance.

       •   The maximum, net peak-heat release rate shall not exceed
           150 kilowatts.

       •   Burning droplets shall not be formed and dropped to the floor or the
           top of the weighing platform.

       •   Average specific
                     2
                            extinction area shall not exceed
           300 meters /kilograms.
First article requirements state that the contractor shall provide copies of the fire
performance test results to the contracting officer and NAVSEA. First article
requirements also state that if the contractor is using multiple manufacturing
facilities, each manufacturing facility is required to submit mattresses for first
article tests. Further, if the contractor changes processes, materials, suppliers,
or manufacturing facilities after first article approval, a new first article sample
must be submitted for tests. However, on August 4, 2000, DSCP issued


                                      5
    modification P00001 to delete the requirement for 1-sided Innerspring
    Mattresses and added the requirement for NIB to manufacture 2-sided
    mattresses. This modification also deleted first article requirements.

               Quality Assurance Requirements. The quality assurance
    requirements in the contract state that the contractor is responsible for
    performance of all examinations and tests. The contractor is required to certify
    in writing, using a certificate of conformance, that the products comply with the
    contract requirements. The contractor is required to re-validate any such
    certification by performing these tests at 6-month intervals. The contract also
    requires that the contractor provide copies of test reports to the contracting
    officer.

NAVSEA Responsibilities and Actions
    NAVSEA did not require NIB to comply with first article test requirements for
    either 1-sided or 2-sided Innerspring Mattresses.

    Testing of 1-Sided Mattresses. The contract required that one sample of each
    size of 1-sided Innerspring Mattresses be submitted to Omega Point
    Laboratories, Inc. for fire performance tests. All three NIB facilities sent one
    or two samples of 1-sided Innerspring Mattresses to Omega Point Laboratories,
    Inc. for fire performance tests in July 2000. A NAVSEA official went to
    Omega Point Laboratories, Inc. and witnessed the tests for at least one mattress.
    The 1-sided mattresses failed the fire performance tests. NAVSEA then
    requested DSCP to modify the contract to require 2-sided Innerspring
    Mattresses, which DSCP did in August 2000.

    Testing of 2-Sided Mattresses. NAVSEA did not require the contractor to
    conduct adequate fire performance tests on the 2-sided Innerspring Mattresses
    that complied with first article requirements. Specifically, only four mattresses
    were tested in July 2000, three of the four mattresses did not meet one of the
    three fire performance requirements, and mattresses were only tested from one
    of the three NIB facilities before NAVSEA directed DSCP to authorize each
    facility to start production. Because nine mattress sizes were identified for
    production on the contract, at least nine mattresses, one of each size, should
    have been tested.

               NAVSEA Oversight of the Testing. The NAVSEA official
    responsible for the mattress procurement witnessed fire performance tests for
    two of the four 2-sided Innerspring Mattresses tested in July 2000. Then, a
    NAVSEA official contacted DSCP and verbally approved the mattresses for
    production even though the first article requirements in the contract were not
    satisfied.




                                        6
               Approval of Mattresses for Production. The NAVSEA official
    approved the 2-sided Innerspring Mattresses even though three of the four
    mattresses did not meet one of the three fire performance test requirements.
    Based on the test results, NAVSEA did not request that the contracting officer
    change the purchase description to match the mattresses that NAVSEA
    accepted. For example, the purchase description stated, “Burning droplets shall
    not be formed and dropped to the floor or the top of the weighing platform.”
    However, the NAVSEA representative witnessing the fire performance tests saw
    at least five flaming droplets form on three of the four Innerspring Mattresses,
    but considered the droplets “inconsequential” and accepted the mattresses as
    meeting NAVSEA requirements. In addition, NAVSEA did not require the
    contractor to comply with contract requirements for all mattress components to
    be fire resistant. Specifically, the polyolefin material used to pocket the
    innerspring coils was not fire resistant and caused the burning droplets to form
    during the fire performance tests.

               Sample Requirements. The NAVSEA official approved the 2-sided
    Innerspring Mattresses even though the four 2-sided mattresses did not meet the
    sample requirements for the three NIB manufacturing facilities. The four
    mattresses were all manufactured at one facility, Lions Club Industries in
    Durham, North Carolina. However, the first article requirements state that if
    the contractor is using multiple manufacturing facilities, each manufacturing
    facility is required to submit mattress samples for first article approval.

    NAVSEA Actions. When the Secretary of the Navy approved the habitability
    improvement initiative in March 2000, the Secretary of the Navy directed that
    the procurement cycle for the Innerspring Mattresses be reduced to 6 months so
    the fleet would begin receiving the mattresses by November 2000. NAVSEA
    did not have funding for research and development of the mattresses. Instead,
    NAVSEA relied on DSCP and NIB to provide funding and mattress samples,
    respectively. The urgency to obtain the Innerspring Mattresses within
    6 months, as requested by the Secretary of the Navy, and insufficient funding
    impacted decisions by NAVSEA officials relating to fire performance tests.

    NAVSEA needs to require that contractors comply with first article test
    requirements for Innerspring Mattresses and notify the contracting officer if
    NAVSEA accepts mattresses that do not meet purchase description requirements
    in the contract.

DSCP and DCMA Responsibilities and Actions
    DSCP modified the contract without obtaining adequate support to delete first
    article requirements and did not ensure that NIB provided mattresses that
    complied with contract requirements. Also, both DSCP and DCMA contracting
    officers did not require NIB facilities to perform 6-month conformance tests.

    Contracting officers at DSCP and DCMA are required to follow FAR guidance
    when administering Government contracts. See Appendix C for applicable FAR
    requirements.




                                       7
Contract Modification. Based on the NAVSEA official’s verbal approval of
the fire performance tests on the four 2-sided Innerspring Mattresses, DSCP
modified the contract in August 2000 to delete the purchase description for the
1-sided mattress and add purchase descriptions for nine sizes of the 2-sided
mattress. DSCP also deleted the first article requirements and did not enforce
or change the purchase description requirement, which stated, “Burning droplets
shall not be formed and dropped to the floor or the top of the weighing
platform.” Specifically, DSCP modified the contract without obtaining adequate
support or documentation to delete first article requirements because DSCP took
this action without written confirmation from NAVSEA. There was no written
documentation in the contract file that identified the person who directed the
change or why the change was made. As a result, DSCP did not comply with
FAR Part 4, “Administrative Matters,” which requires the contracting officer to
maintain records of all contractual actions, including sufficient documentation to
make informed decisions throughout the contracting process. DSCP needs to
obtain and maintain adequate documentation to support all contractual actions in
accordance with FAR Part 4.

Contract Compliance. DSCP and DCMA did not ensure that each of the
three NIB manufacturers met first article requirements for the Innerspring
Mattresses, as required by the contract. Specifically, on July 26, 2000, a DSCP
technical representative sent an electronic mail message directing the DCMA
quality assurance representatives at the three NIB manufacturers not to send any
more mattresses for fire performance tests. DSCP also limited the quality
assurance representatives’ responsibilities to performing dimensional, weight,
and visual examination only. DCMA quality assurance representatives followed
this direction for 11 months of the 12-month contract before obtaining written
documentation from the contracting officer. Thus, DCMA quality assurance
representatives did not require NIB manufacturers to send mattresses for fire
performance tests in accordance with contract requirements to perform 6-month
conformance tests. As a result, DCSP and DCMA did not comply with
FAR Part 9, “Contractor Qualifications,” which states that the contractor should
provide a product that conforms to contract requirements. DSCP and DCMA
need to require that NIB provide Innerspring Mattresses that comply with
contract requirements in accordance with FAR Part 9.

Contract Administration. Both DSCP and DCMA did not adequately perform
contract administration duties. Although the contract required the contractor to
perform 6-month conformance tests, DCSP and DCMA did not require the
contractor to perform the tests. FAR Part 42, “Contract Administrative and
Audit Services,” requires that the administrative contracting officer ensure
contractor compliance with contractual quality assurance requirements. If
6-month conformance tests had been performed, DSCP or DCMA could have
identified that the mattresses were not meeting fire-resistance requirements and
saved about $4.8 million on the procurement of the mattresses during the last
6 months of the contract. DSCP and DCMA need to require NIB to comply with
contract quality assurance requirements in accordance with FAR Part 42.




                                    8
    DSCP and DCMA Actions. DSCP and DCMA did not comply with FAR
    requirements for the administration of the contract. For example, DSCP did not
    keep adequate records in the contract file and did not require the contractor to
    provide Innerspring Mattresses in accordance with the terms of the contract.
    Also, DSCP and DCMA contracting officers did not ensure that the contractor
    complied with 6-month conformance test requirements.

Summary
    NAVSEA, DSCP, and DCMA jointly share responsibility for Innerspring
    Mattresses that did not meet fire-resistance requirements. NAVSEA developed
    a purchase description for a 1-sided Innerspring Mattress and DSCP awarded a
    contract for the mattresses to NIB in July 2000. When the 1-sided mattresses
    failed the fire performance tests, NAVSEA changed the requirement to 2-sided
    mattresses and requested DSCP to modify the contract. Defense contracting
    officials subsequently deleted first article requirements and did not require NIB
    facilities to conduct tests throughout the life of the contract, so the Innerspring
    Mattresses were manufactured for 1 year before their lack of fire resistance was
    identified. As a result, the Navy spent $12.5 million for 90,448 mattresses that
    did not meet Navy-defined contract requirements for fire resistance. In
    addition, DSCP procured fire-resistant mattress covers costing $4.3 million to
    reduce the risk of the mattresses catching fire. Recommendations made in this
    report relate to procurements of future products to prevent similar problems
    from occurring.

Management Comments on the Finding and Audit Response
    Management Comments. The Defense Contract Management Agency
    generally agreed with the finding and stated that two key events related to the
    administration of the Innerspring Mattress contract were not included in
    Appendix B. Specifically, the July 26, 2000, electronic mail message sent from
    the Defense Supply Center Philadelphia to the quality assurance representatives
    was not included. Also, contract modification P00005, dated June 29, 2001,
    was not included in Appendix B. This modification directs quality assurance
    representatives to only check mattresses for weight and dimensional
    requirements.

    Audit Response. We partially concur with the Defense Contract Management
    Agency suggestion and added a reference to the July 26, 2000, electronic mail
    message in Appendix B. However, we did not include a reference to the
    June 29, 2001, contract modification because the modification was made with
    less than 1 month remaining on the contract.




                                         9
Recommendations and Management Comments
    1. We recommend that the Commander, Naval Sea Systems Command:

           a. Require that contractors comply with first article test
    requirements on contracts for Innerspring Mattresses.

           b. Notify the contracting officer if the Navy accepts mattresses that
    do not meet purchase description requirements on future contracts.

    Management Comments. The Navy concurred with the recommendations.
    The Navy will include strict test sampling procedures in a new innerspring
    mattress contract that is scheduled to be awarded in May 2002. In addition, the
    Naval Sea Systems Command plans to formally notify the Defense Supply
    Center Philadelphia contracting officer if the Navy accepts any changes to the
    mattress purchase description requirements and modify the contract to reflect
    these changes. The Navy stated that they would complete both actions by
    May 31, 2002.

    2. We recommend that the Director, Defense Supply Center Philadelphia
    when awarding another Innerspring Mattress contract:

           a. Obtain and maintain adequate documentation to support all
    contractual actions in accordance with Federal Acquisition Regulation
    Part 4, “Administrative Matters.”

           b. Require National Industries for the Blind and its subcontractors
    to provide Innerspring Mattresses that comply with contract requirements
    in accordance with Federal Acquisition Regulation Part 9, “Contractor
    Qualifications.”

           c. Require National Industries for the Blind and its subcontractors
    to comply with Innerspring Mattress contract quality assurance
    requirements in accordance with Federal Acquisition Regulation Part 42,
    “Contract Administrative and Audit Services.”

    Management Comments. The Defense Logistics Agency concurred with the
    recommendations. The Defense Supply Center Philadelphia issued Contracting
    and Production Policy Memorandum Number 01-16, “Request for Waiver of
    First Article Testing,” October 15, 2001, as a direct response to lessons learned
    during the administration of the mattress contract. The Defense Supply Center
    Philadelphia will ensure that all contracting officers maintain records of all
    contractual actions taken, that all contractors provide a product that conforms to
    all contract requirements for acceptance, and that contract administration
    authority delegated to an administrative contracting officer results in contractor
    compliance with all contractual quality assurance requirements.




                                        10
3. We recommend that the Director, Defense Contract Management
Agency require National Industries for the Blind and its subcontractors to
comply with quality assurance requirements for any future Innerspring
Mattress contracts in accordance with Federal Acquisition Regulation
Part 42 or obtain modifications from the contracting officer for any changes
to the 6-month conformance tests in contract requirements.

Management Comments. The Defense Contract Management Agency agreed
that contract modifications should only be made when the procurement
contracting officer authorizes a change to the contract. All personnel were
directed to comply with Federal Acquisition Regulation requirements and that
customer directions comply with basic contracting principles. The Defense
Contract Management Agency will discuss lessons learned from the
administration of the innerspring mattress contract at the Executive Management
Board meeting scheduled for May 23, 2002, and expects to complete all actions
related to the recommendation by June 30, 2002.




                                  11
Appendix A. Scope and Methodology

Scope
    Work Performed. We evaluated the award and administration of contract
    SP0100-00-D-EE72 for the procurement of Innerspring Mattresses, which was
    valued at about $12.5 million. We also reviewed the follow-on Innerspring
    Mattress contract, SP0100-01-D-EE66, and the mattress cover contract,
    SP0100-02-D-EA34, as they related to the administration of contract SP0100-
    00-D-EE72. We compared policies, procedures, and documentation related to
    the contract with the FAR requirements. Specifically, we reviewed the contract,
    contract modifications, results of fire performance tests, correspondence
    between DSCP and quality assurance representatives, and minutes of meetings
    with NIB, DSCP, and NAVSEA representatives. We also interviewed DoD,
    NAVSEA, and contractor personnel involved with the procurement of
    Innerspring Mattresses.

    We conducted our review at DSCP in Philadelphia, Pennsylvania; NAVSEA in
    Washington, D.C.; NIB Headquarters in Arlington, Virginia; Winston-Salem
    Industries for the Blind in Winston-Salem, North Carolina; Lions Club
    Industries in Durham, North Carolina; and Virginia Industries for the Blind in
    Charlottesville, Virginia. We did not review the management control program
    because the scope of the audit was limited to award and administration policies
    and procedures related to the contract.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

Methodology
    Use of Computer-Processed Data. We did not rely on computer-processed
    data for our review of the award and administration policies and procedures
    followed for the contract.

    Audit Dates and Standards. We performed this audit from October 2001
    through February 2002 in accordance with generally accepted government
    auditing standards.

    Contacts During the Audit. We visited or contacted individuals within DoD
    and within National Industries for the Blind in Arlington, Virginia. Further
    details are available on request.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.



                                       12
 Appendix B. Chronology of Events for
             Innerspring Mattresses Procured on
             Contract SP0100-00-D-EE72
    Dates                                                      Events

August 1994          Naval Research Laboratory conducts fire tests on several new Innerspring Mattresses.

September 1999       USS Cole requests 210 Innerspring Mattresses after Innerspring Mattresses are tested
                     aboard the ship.

March 2000           The Secretary of the Navy approves habitability improvement initiative to replace
                     neoprene foam mattresses with Innerspring Mattresses on board ships.

March to July 2000   NAVSEA develops a purchase description; 1-sided and 2-sided mattresses of varying
                     compositions are tested to meet firmness, weight, and fire-resistance characteristics.

July 14, 2000        DSCP awards contract SP011-00-D-EE72 to NIB for 1-sided Innerspring Mattresses.

July 20, 2000        One-sided mattresses fail fire performance tests.

July 24-25, 2000     Four 2-sided mattresses are tested for fire performance. NAVSEA official accepts
                     mattresses as passing even though three exhibit burning droplets.

July 26, 2000        DSCP technical representative sent an electronic mail message requesting the DCMA
                     quality assurance representatives at the three NIB manufacturers not to send any more
                     mattresses for fire performance tests.

August 4, 2000       DSCP modifies contract SP0100-00-D-EE72 to specify procurement of 2-sided mattresses
                     and delete first article requirements.

August 26, 2001      Nine of 12 mattresses submitted for first article fire testing under the follow-on contract
                     fail heat-release rate requirements, and all 12 exhibit flaming droplets.
August 29, 2001      DSCP awards a follow-on contract, SP0100-01-D-EE66, to NIB for 90,000 additional
                     Innerspring Mattresses.

September 21, 2001   Fifteen of 21 mattresses produced under the initial and follow-on contracts fail fire tests.

October 2001         DSCP directs NIB to stop all Innerspring Mattress production.

November 16, 2001    DSCP awarded a contract to NIB to manufacture 90,000 fire-resistant mattress covers to
                     reduce the risk of fire from mattresses already issued to the fleet that did not meet fire
                     performance requirements.

January 2002         DSCP partners with NAVSEA and NIB to perform additional research, development, and
                     testing on Innerspring Mattresses.




                                                   13
Appendix C. Federal Acquisition Regulation
            Requirements
   The FAR provides guidance to contracting officers and contractors involved
   with Government contracts. Specifically, the FAR defines duties and
   responsibilities for all personnel involved in the award and administration of
   Federal contracts. The following FAR requirements pertain to the
   administration of contract SP0100-00-D-EE72.

   FAR Part 4. FAR Part 4, “Administrative Matters,” states that the head of
   each contracting office shall establish files containing the records of all
   contractual actions. The documentation in the files shall be sufficient to
   constitute a complete history of the transaction. The purpose of the
   documentation includes providing a complete background as a basis for
   informed decisions at each step in the acquisition process, supporting actions
   taken, providing information for reviews and investigations, and furnishing
   essential facts in the event of litigation or congressional inquiries.

   FAR Part 9. FAR Part 9, “Contractor Qualifications,” states that the
   contractor shall provide a product that conforms to all contract requirements for
   acceptance. Before requiring testing and approval, the contracting officer shall
   consider the impact on cost or time of delivery, the risk to the Government of
   not performing such a test, and the availability of less costly methods of
   ensuring the desired quality. Testing and approval is also recommended when
   the contractor has furnished the product to the Government before but there
   have been changes in the processes or specifications. FAR Part 9 explains that
   the solicitations shall provide the performance that the first article must meet for
   approval, the detailed technical requirements for the tests that must be
   performed for approval, and the necessary data that must be submitted to the
   Government in the first article approval test report. The Government laboratory
   or other activity responsible for first article testing shall inform the contracting
   officer whether to approve, conditionally approve, or disapprove the first
   article.

   FAR Part 42. FAR Part 42, “Contract Administration and Audit Services,”
   states that contracting officers may delegate contract administration or
   specialized support services, either through interagency agreements or by direct
   request, to the cognizant contract administration office listed in the Federal
   Directory of Contract Administration Services Components.

   The contracting officer normally delegates 70 contract administration functions
   to a contract administration office that include:

      •   performing production support, surveillance, and status reporting,
          including timely reporting of potential and actual slippages in contract
          delivery schedules;

      •   ensuring contractor compliance with contractual quality assurance
          requirements;



                                        14
•   performing engineering surveillance to assess compliance with
    contractual terms for schedule, cost, and technical performance in the
    areas of design, development, and production;

•   reporting to the contracting office any inadequacies noted in
    specifications;

•   assisting in evaluating and making recommendations for acceptance or
    rejection of waivers and deviations;

•   assigning and performing supporting contract administration;

•   ensuring timely submission of required reports; and

•   supporting the program, product, and project offices regarding program
    reviews, program status, program performance, and actual or anticipated
    program problems.




                                15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Procurement

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Sea Systems Command
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Director, Defense Supply Center Philadelphia
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Non-Government Organization
National Industries for the Blind
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Department of the Navy Comments




                     19
20
21
22
Defense Logistics Agency Comments




                     23
24
25
Defense Contract Management Agency
Comments




                   26
27
     Added to
     Appendix B




28
29
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing for the Department of Defense prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the report
are listed below.

Garold E. Stephenson
Henry F. Kleinknecht
Ronald W. Hodges
Lorin T. Pfeil
Nicole M. Ellis
Brett N. Ward
LTC Patty J. Korn
Ann L. Thompson
